Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES
No.

APR 0 5 2021
OFFICE OF THE CLERK

Emem Ufot Udoh,
Petitioner,
vs.
Minnesota Department of Human Services; Charles E. Johnson;
Donothan Bartley; Ann Norton; Daniel E. Engstrom;
Catrina Blair;
City of Maple Grove; City of Maple Grove Police Department;
Melissa Parker;
City of Plymouth; City of Plymouth Police Department;
Molly Lynch; Kelvin Pregler;
Independent School District, No. 279; Joanne Wallen;
Karen Wegerson; Ann Mock;
CornerHouse; Patricia Harmon; Bill Koncar;
Grace W. Ray; and Linda Thompson,
Respondents.
ON PETITION FOR WRIT FOR CERTIORARI
TO THE EIGHTH CIRCUIT COURT OF APPEALS
SEPTEMBER 23, 2020 JUDGMENT AND
NOVEMBER 10, 2020 DENIAL ON REHEARING
IN USCA8 CASE NO. 20-2040

EMEM U. UDOH
7600 525th Street
Rush City
MN 55767
PRO SE PETITIONER

QUESTIONS PRESENTED FOR REVIEW
Question One: In the (a) Denial of Plaintiffs Motions, Whether “Pro Se
Litigants” are Held to the Same Legal Standards as “Counseled Litigants” in
light of Haines v. Kerner, 404 U.S. 519 (1972); Davis v. Monroe County Bd, 526
U.S. 629 (1999); Erickson v. Pardus, 551 U.S. 89 (2007); Skinner v. Switzer,
562 US 521 (2011)?
Question Two: Whether Parent(s) May Assert a Fourth Amendment
Challenge Regarding a Search and Seizure of their Minor Children?
Question Three: Whether Evidence of “Reasonable Suspicion of Child Abuse”
Standard Does Not Apply To Plaintiffs §1983 (a) Fourth Amendment
Warrantless Entry to Home to Conduct Search and Right to Privacy; (b)
Fourteenth Amendment Stigma-Plus Preclusion to Seek Employment in their
Chosen Profession and Procedural Due Process Claims; and (c) §1985
Conspiracy Claim for Qualified Immunity Purposes?
Question Four: Whether Government Entities Such as City Of Plymouth,
City Of Maple Grove, Hennepin County, CornerHouse and Minnesota
Department of Human Services are Not Entitled to Judgment on Qualified
Immunity Grounds for Municipal Liability in light of Monell v. Dept of Social
Services, 436 U.S. 658 (1978); Pembaur v. Cincinnati, 475 US 469 (1986)?
Question Five: Whether Defendants Violated Plaintiffs’ Clearly Established
(a) Fourth Amendment and Minn. Const. Art. I, Sec. 10 Rights Against
Unreasonable Search And Seizure, (b) Fifth Amendment Right to Miranda
Warnings, and (C) Fourteenth Amendment Substantive And Procedural Due
Process Rights and Art. I, Sec. 7 of Minn. Const, in light of Troxel v. Granville,
530 U.S. 57 (2000); Ferguson v. Charleston, 532 U.S. 67 (2001); Stanley v.
Illinois, 405 U.S. 645 (1972); Stansbury v. California, 511 U.S. 318 (1994);
Maine v. Thiboutot, 448 U.S. 1 (1980); Safford Unified Sch. Dist. v. Redding,
557 US 364 (2009)?
Question Six: Whether Defendants Falsely Arrested and Imprisoned
Plaintiffs and Caused Intentional Infliction Of Emotional Distress on All
Plaintiffs?
Question Seven: Whether Minn. Stats. §626.556 and §260.165 Now
§260C.175 are Unconstitutional Facially and as Applied to Plaintiffs in light of
Troxel v. Granville, 530 U.S. 57 (2000); Chicago v. Morales, 527 U.S. 41 (1999);
Petition By Udoh - Page ii

Ferguson v. Charleston, 532 U.S. 67 (2001); Stanley v. Illinois, 405 U.S. 645
(1972)?
Question Eight: Whether Under the Circumstances of this Case, A
Municipality Can Be Held Liable Under Monell For Arguing Enforcing or
Adherence to State Laws MGDPA, Minn. Stats. §626.556 and §260C.175 in
light of Monell v. Dep’t of Social Services, 436 U.S. 658 (1978)?
Question Nine: Whether Competent Parent (Non-Attorney) May Proceed Pro
Se on Behalf of their Minor Children to Challenge in a Federal Civil Court
Violation of their Fourth and Fourteenth Amendments Constitutional Rights
and State-Law Claims?
Question Ten: Whether Individual Defendants are Not Entitled to Judgment
on Qualified Immunity Grounds on All Plaintiffs §1983 and §1985 Claims?

Petition By Udoh - Page iii

LIST OF PARTIES
All parties appear in the caption of the case on the cover page. Attorneys for
Respondent are:
MR. FEDERIC J. ARGIR
MR. ALI P. AFSHAR JAVAN
Minnesota Attorney General’s Office
Suite 1100, 445 Minnesota Street
St. Paul, MN 55101-2128
Attorneys for Minnesota Department of Human
Services and Charles E. Johnson.
MR. DANIEL KACZOR
MS. CHRISTIANA M. MARTENSON
Hennepin County Attorney’s Office
Government Center, 300 S. Sixth Street
Minneapolis, MN 55487
Attorneys for Donothan Bartley, Ann Norton,
Daniel E. Engstrom, Catrina Blair and Linda
Thompson.
MR. JOHN P. EDISON
MR. MICHAEL J. WALDSPURGER
RUPP & ANDERSON
Suite 2800, 333 S. Seventh Street
Minneapolis, MN 55402
Attorneys for Independent School District, No.
279, Joanne Wallen, Karen Wegerson, and Ann
Mock.
MR. JOHN MARTI
MS. LAUREN OLIVIA ROSO
DORSEY & WHITNEY
Suite 1500, 50 S. Sixth Street
Minneapolis, MN 55402-1498
Attorneys for CornerHouse, Patricia Harmon,
Bill Koncar, and Grace W. Ray.
MR. PAUL D. REUVERS
MR. NATHAN C. MIDOLO
IVERSON & REUVERS
9321 Ensign Avenue South
Bloomington, MN 55434

Petition By Udoh - Page iv

Attorneys for City of Maple Grove, City of Maple
Grove Police Department, and Melissa Parker.

MR. PAUL D. REUVERS
MR. NATHAN C. MIDOLO
IVERSON & REUVERS
9321 Ensign Avenue South
Bloomington, MN 55434
Attorneys for City of Plymouth, City of Plymouth
Police Department, Molly Lynch, and Kelvin
Pregler.

ATTORNEYS FOR RESPONDENTS

Petition By Udoh - Page v

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

II

LIST OF PARTIES..........................................

IV

TABLE OF CITED AUTHORITIES............

VIII

STATEMENT OF JURISDICTION

1

OPINIONS BELOW

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

STATEMENT OF THE FACTS

4

5
A. Statutory Framework.
B. Custodial Interrogations and Examinations of the Udohs’ Children at
5
School and Disclosure of Confidential Information.
C. The Udohs’ Children Removal and Placement at St. Joseph Home, and
Warrantless Entry to the Udohs’ Private Home to Conduct Inspection
5
and Examination of Other Minor Children.
D. Further Investigation of the Udohs’ Children Occurs at CornerHouse to
Gather Evidence for Prosecution and Disclosure of Confidential
Information.
6
E. Bartley and Hennepin County Entering of Maltreatment Findings in
Minnesota Child Abuse Registry and Disclosure of Confidential
6
Information
F. Further Investigation and Examination of the Udohs’ Children Occurs
Again at CornerHouse Medical and Disclosure of Confidential
6
Information
G. Newly Discovered Evidence of Witnesses’ Recantation Discovered In Mr.
7
Udoh’s Post-Conviction In 2018 ...
8
H. First Evidentiary Hearing In 2018
I. The Recanting Witnesses’ (K.K.W., and K.C.W.) Were Apprised Of Their
11
Fifth Amendment Right
J. Evidentiary Hearing Testimony Of The Recanting Witnesses’ (K.K.W., and
K'.C.W.) For Newly Discovered Evidence, And To Vacate The Judgement
12
And Order Under Fed. R. Civ. Pro. 60(B)
REASONS FOR GRANTING THE WRIT.......
I.

23

THE LOWER COURT ERRED IN THE DENIAL OF PLAINTIFFS MOTION
BASED ON THE NEWLY DISCOVERED EVIDENCE TO VACATE THE
24
JUDGEMENT AND ORDER UNDER FED. R. CIV. PRO. 60(B)
24
A. Standard of review.......................................................................

Petition By Udoh - Page vi

AH

THE

NEWLY

DISCOVERED

EVIDENCE

TO

VACAili

1M

A°TOTOtSSSS^cSi REGARDING THE
SEARCH AND SEIZURE OF THEIR MINOR CHILDREN.............................
CHILD ABUSE” STANDARD DOES

IIL

fourth amendment andrightto
PRIVACY CLAIMS- FOURTEENTH AMENDMENT STIGMA-PLUS, AND
CONSPIRACY CLAIMS- AND COMPETENT PARENT (WHO ARE NOT AN
ATTORNEY) SHOULD BE ABLE TO PROCEED PRO SE ON BEHALF OF
THEIR MINOR CHILDREN IN A FEDERAL CIVIL COURT.........................

TV DEFENDANTS FALSELY ARRESTED AND IMPRISONED PLAINTIFFS
AND CAUSED INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
ON ALL PLAINTIFFS; AND DEFENDANTS POLICY, CUSTOM MINN.
STATS. 5626.556 AND §260.165 NOW MINN. STATS. §2600.175 ARE
UNCONSTITUTIONAL FACIALLY AND AS APPLIED TO PLAINTIFF PETITIONERS..........................
CONCLUSION....................................
CERTIFICATE OF COMPLIANCE

Petition By Udoh - Page vii

.................
39
39

TABLE OF CITED AUTHORITIES
Cases

38
Akey v. Placer, 2015 US Dist. LEXIS 35306 (Mar. 20, 2015)............................
29
Ala. v. White, 496 U.S. 325 (1990)...........................................................................
38
Baribeau v. City of Minneapolis, 596 F.3d 465 (8th Cir. 2010)...........................
30
Berger v. N.Y., 388 U.S. 41, 63 (1967).....................................................................
27, 37
Berman v. Young, 37 F. Supp. 2d 1035, 1047 (N.D. Ill. 1998)...........................
27
Brown u. Medtronic, Inc., 628 F.3d 451, 460 (8th Cir. 2010)..............................
in
Chicago v. Morales, 527 U.S. 41 (1999)..................................................................
26
Coleman i>. Correct Care Solutions, 559 Fed. Appx. 601 (8th Cir. 2014)........
Davis v. Monroe County Bd, 526 U.S. 629 (1999)................................................ ii, 26, 38
Erickson l>. Pardus, 551 U.S. 89 (2007).................................................................. .... ii, 28
n, in
Ferguson v. Charleston, 532 U.S. 67 (2001)..........................................................
33
Gomes v. Wood..............................................................................................................
Haines v. Kerner, 404 U.S. 519 (1972)..................................................................... passim
Hearing v. Sliwowski, 712 F.3d 275, 278, 282 - 283 (6th Cir. 2013)................
30
Heartland Acad. Cmty. Church v. Waddle, 427 F.3d 525 (8th Cir. 2005)........ passim
J.D.B v. North Carolina, 564 US 261 (2011)......................................................... ..31, 35
34
Lux by Lux v. Hansen, 886 F.2d 1064, 1067 (8th Cir. 1989)................................
ii, 31
Maine v. Thiboutot, 448 U.S. 1 (1980).....................................................................
Michaelis v. Nebraska State Bar Ass’n, 717 F.2d 437, 438 -39 (8th Cir. 1983)
28
30
N. G. Ex. Bel S.C v. Connecticut, 382 F.3d 225, 237 (2"d Cir. 2004)...............
ii
Pembaur v. Cincinnati, 475 US 469 (1986)............................................................
27
Phillips v. County of Allegheny, 515 F.3d 224 (3rd Cir. 2008)..........................
27
Reyes v. Downey, S & L Ass’n, FA, 541 F. Supp. 2d 1108 (C. D. Cal. 2008)...
Safford Unified Sch. Dist. v. Redding, 557 U.S. 364 (2009).............................. ii, 29, 35
32
Simuro ex rel. K.S. v. Shedd, 176 F. Supp. 3d 358, 378 (Dist. Ver. 2016)......
ii, 28
Skinner v. Switzer, 562 US__(2011).......................................................................
,ii, m
Stanley v. Illinois, 405 U.S. 645 (1972)..................................................................
ii, 31
Stansbury v. California, 511 U.S. 318 (1994)........................................................
26
Syverson v. Firepond, Inc., 383 F.3d 745, 749 (8th Cir. 2004)............................
ii, 29
Troxel v. Granville, 530 U.S. 57 (2000)..................................................................
30
U.S. v. Jones, 132 S .Ct. 945 (2012).........................................................................
2
Udoh et al v. Minnesota Department of Human Services et al..........................
26
Ulrich v. Pope County, 715 F.3d 1054, 1058 (8th Cir. 2013)................................
29
United States v. Arvizu, 534 U.S. 266 (2002)........................................................
32
United States v. Shaw, 464 F.3d 615 (6th Cir. 2006)...........................................
32
Wesley v. Campbell, 779 F.3d 421, 430 (6th Cir, 2015).........................................
Petition By Udoh - Page viii

Wirth v. Surles, 562 F.2d 319 (4th Cir. 1977)

31

Statutes
§13.01...............
42 U.S.C. §1983
MGDPA............

Petition By Udoh - Page ix

4
2

iii, 4

IN THE
SUPREME COURT OF THE UNITED STATES
No.

Emem Ufot Udoh,
Petitioner,
vs.
Minnesota Department of Human Services et al.
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE EIGHTH CIRCUIT COURT OF APPEALS
SEPTEMBER 23, 2020 JUDGMENT AND
NOVEMBER 10, 2020 DENIAL ON REHEARING
IN USCA8 CASE NO. 20-2040
Petitioner, Emem Ufot Udoh. respectfully petition for a Writ of Certiorari to review the
judgment of the Eighth Circuit Court of Appeals in this case.
STATEMENT OF JURISDICTION
Petitioner, Emem Ufot Udoh. filed a Motion to Vacate the Judgement and Order under Fed.
R. Civ. Pro. 60(B). See 0:16-CV-3119 (PJS/SER). Between April 13, 2020 and May 13, 2020,
Petitioner notified the district court of the extraordinary circumstances and collateral consequences
that justify the reliefs requested. On May 13, 2020, the district court denied Petitioner’s motion.
The Eighth Circuit Court of Appeals entered its judgment on September 23. 2020. Petitioners
timely filed a petition for rehearing and for en-banc hearing, which was denied on November 10.
2020, See USCA8 No. 20-2040.
On March 19, 2020, this Court extended the deadline to file petitions for writ of certiorari
in all cases due on or after the date of that March 19, 2020 order to 150 days from the date of the
lower court judgment due to the ongoing public health concerns relating to COVID-19. See
Appendix By Udoh - Page -1

(ORDER LIST): 589 U.S.

(March 19, 2020). Therefore, Petitioner’s petition for writ of

certiorari is due by April 09. 2021 under this Court’s March 19, 2020 Order. This Court’s
jurisdiction is invoked under 28 U.S.C §1254(1).
OPINIONS BELOW
The order and judgment of the district court of Minnesota is unpublished. See Udoh, et al v.
Minnesota Department of Human Services, et al, Civ. No. 0:16-cv-3119 (PJS/SER), 2020 U.S. Dist.
LEXIS 841151, 2020 WL 2468743 (D. Minn. May 13, 2020). The decision of the Eighth Circuit
Court of Appeals appears in Udoh v. Minnesota Department of Human Servs., 2020 U.S. App.
LEXIS 37338, 2020 WL 6886420 (8Th Cir. Minn., September 23, 2020), rehearing denied by 2020
U.S. App. LEXIS 35501 (8Th Cir. Minn., November 10, 2020). See USCA8 Case No. 20-2040.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The relevant constitutional provisions and claims involved in this case are as follows:
The Fourth Amendment provides in relevant part:
“The right of the people to be secured in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue but
upon probable cause, supported by Oath or affirmation, and particularly describing the
place to be searched, and the persons or things to be seized.”
The Fifth Amendment provides in relevant part:
“No person shall be held to answer for a capital, or otherwise infamous crime, ... nor shall
any person be subject for the same offence to be twice put in jeopardy of life or limb; ... nor
be deprived of life, liberty, or property without due process of law ... .”
The Fourteenth Amendment of the Constitution provides in relevant part:
“No State shall... deprive any person of life, liberty or property without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws.”

Petition By Udoh - Page 2

STATEMENT OF THE CASE
Petitioner, Emem Ufot Udoh. the Udohs initiated this action in the district court of
Minnesota on September 19, 2016 alleging sixteen (16) counts of constitutional violations, and
several counts under state common law. See generally (Compl.). ECF Nos. 1. The original and
amended complaint is supplemented by 145 pages of exhibits. ECF No. 143 at 3. The Udohs sought
relief pursuant to 42 U.S.C. §1983 and §1985. They alleged the following unconstitutional conducts
by Defendants (also referred herein as “Respondents”), in their individual and officials capacities,
deprived them of various rights under the United States and Minnesota State Constitutions. The
Udohs sought three types of relief based on these claims. The Udohs demanded damages, Attorney
fees, and expenses for the constitutional violations resulting from the Government’s conducts. See
Compl. 11H1-2, 1(230. In addition to compensatory and punitive damages, the Udohs sought
injunctive relief set forth in HU 1-2, UU191-94,1(11210-11, and 1|230. The Udohs also sought judicial
declarations set forth in 1)230.
Respondents1, the Hennepin County Defendants and the CornerHouse Defendants moved
for a motion to dismiss. See ECF No. 56. Respondents, the School District Defendants and the
State Defendants moved for a motion for judgment on the pleading. See ECF Nos. 65, 73.
Respondents, the City Defendants moved for a motion to dismiss and for summary judgment. See
ECF No. 90. The Udohs moved for motions and/or leave to amend the original complaint. See ECF
Nos. 99, 101, 102, 118, 131. Oral arguments on these motions were held on June 6, 2017. See ECF
No. 139.

i

Refers Defendants collectively as described in Honorable Magistrate Judge Steven E. Rau
Opinion. See Pet. App. 15 - 69.
Petition By Udoh - Page 3

The district court in modifying and adopting the magistrate court report and
recommendations denied the City Defendants motion for summary judgment and the Udohs:
motions and/or leave to amend the complaint, but granted all Respondents dispositive motions
under Rule 12(b)(6) and 12(c). See ECF Nos. 163,164. The Udohs appealed the order and judgment
with regards to their claims on the issues presented for review to the Eighth Circuit Court of
Appeals. The Eighth Circuit Court of Appeals (“circuit court”) affirmed the judgement of the
district court.
Petitioner, Emem Ufot Udoh. filed a Motion to Vacate the Judgement and Order under Fed.
R. Civ. Pro. 60(B). Between April 13, 2020 and May 13, 2020, Petitioner notified the district court
of the extraordinary circumstances and collateral consequences that justify the reliefs requested.
On May 13, 2020, the district court denied Petitioners’ motion. The Eighth Circuit Court of Appeals
entered its judgment on September 23. 2020. Petitioners’ timely filed a petition for rehearing and
for en-banc hearing. The Eighth Circuit Court of Appeals denied the petition on November 10,
2020. See USCA8 No. 20-2040.
STATEMENT OF THE FACTS
Substantive allegations are set forth in 1ffl48 - 113 of the complaint and Exhibits A -N
attached to the complaint. Tonya Udoh (“Tonya”) is the mother of four minor children, K.K.W.,
KC.W., C.U., and C.U. Emem Udoh (“Emem”) is Tonya’s husband, the father of C.U., and C.U.,
and the stepfather of K.K.W., and K.C.W. Tonya was a social work student and a DHS-licensed
certified nursing assistant. Emem was a Software Engineer at Stratasys, Inc. The Udohs appeared
pro se in the district court, individually and on behalf of their minor children. See generally
(Compl).

Petition By Udoh - Page 4

A.

Statutory Framework.
A summary of the Minnesota statutory provisions, Minn. Stats. §626.556, Subd. 10, 11

§260C.175, Subd. 1(2) (ii) and Chapter 13 of Minnesota Government Data Practices Act (“MGDPA”)
are discussed in relevant part in School District, Hennepin County, CornerHouse and State
Defendants memorandum, see ECF Nos. 58 at 2-4, 75 at 4-5, 67 at 17-18. See also ECF No. 125 at
11-13 with §13.01 - .88 (MGDPA) provides that the consequences for not providing a Tennessen
warning is that any Government entities should not store or use the information it collected from
the Udohs and their children. See IPAD Adv. Op. 10-014 (May 4, 2010). The Udohs allege that
Minn. Stats. §626.556, Subd. 10, 11, §260C.175, Subd. l(2)(ii), Defendants entities’ polices and/or
custom, are facially and as applied by Defendants, unconstitutional. Compl. 1I1|57 - 230.
B. Custodial Interrogations and Examinations of the Udohs’ Children at School
and Disclosure of Confidential Information.
Substantive allegations are set forth in Ht57 - 113 of the complaint and Exhibits A - G
attached to the complaint.
C. The Udohs’ Children Removal and Placement at St. Joseph Home, and
Warrantless Entry to the Udohs’ Private Home to Conduct Inspection and
Examination of Other Minor Children.
That day, Bartley disclosed this confidential information and reported that K.K.W said that
she did not feel safe at home to the following people: Defendants Molly Lynch (“Lynch”) and Kelvin
Pregler (“Pregler”), Plymouth officers; Parker, Wallen and Ann Norton (“Norton”), a CPS social
worker supervisor. The Udohs allege that the information was false and that this group of
Defendants did not explain to the Udohs and their children their Miranda or Tennessen warning
and knew:
K.K.W had a reputation of being untruthful... knew earlier that week, K.K.W had made an
allegation of being assaulted at school by a student at the school gym that was investigated
by Melissa (“Parker”) to be false ... knew that K.K.W’s mother and K.C.W were not aware
Petition By Udoh - Page 5

of any alleged abuse ... Bartley and Lynch could not corroborate or substantiate the alleged
abuse with the mother and K.C.W ... knew that K.K.W suffered from developmental
disabilities and was prone to “ADHD” acting out ... knew Bartley had found no injuries,
signs of sexual abuse ... knew the mother and stepparent had a clean criminal record with
no record involving CSC offenses ... knew that [the children] parents had not consented to
Bartley’s examination without a Doctor or parental presence at [school and home] ... knew
that DHS Statute provisions did not vest Bartley with authority to be physically observing
and examining minor children at their [school or home] to find signs of sexual abuse ... knew
that two days ago, Melissa investigated this allegation and found that K.K.W was not in
any immediate danger.
Based on these information, Bartley and Lynch removed K.K.W. and K.CW from their home,
family and school.
On February 21, 2013, the children were placed at St. Joseph Home. The Udohs allege that
the place was unsanitary for the children, 187. Bartley then conducted a warrantless entry to the
Udohs home for inspection and physical examination of C.U. and C.U., 184 and found no sign of
abuse or neglect. Lynch scheduled the interview at CornerHouse for law enforcement purpose, see
183, Compl. Ex. E at 5, and to prosecute parents at Hennepin County. See Compl. Ex. E at 8.
D. Further Investigation of the Udohs’ Children Occurs at CornerHouse to Gather
Evidence for Prosecution and Disclosure of Confidential Information.
Substantive allegations are set forth in H94 - 102 of the complaint and Exhibits A - G
attached to the complaint.
E. Bartley and Hennepin County Entering of Maltreatment Findings in Minnesota
Child Abuse Registry and Disclosure of Confidential Information.
Substantive allegations are set forth in 11113 - 230 of the complaint and Exhibits A - G
attached to the complaint.
F. Further Investigation and Examination of the Udohs’ Children Occurs Again at
CornerHouse Medical and Disclosure of Confidential Information.
On March 6, 2013, Defendants Catrina Blair (“Blair”), a Hennepin County social worker
took K.K.W., and K.C.W. to CornerHouse for custodial interrogation and very intrusive physical

Petition By Udoh - Page 6

examinations with Defendant Linda Thompson (“Thompson”), a CornerHouse physician. The
confidential information from the CornerHouse interrogations and examinations was disclosed to
Defendants and their entities. The Udohs allege that Dr. Thompson did not find any physical
evidence of sexual abuse. The Udohs allege that Defendants in Sections B, C, D, E and F,
including Defendants Bartley, Blair, Thompson and Lynch did not explain to the Udohs and their
children their Miranda or Tennessen warning and conspired to deprive them of their constitutional
rights ff65-207. The Udohs allege that these groups of Defendants falsely arrested and
imprisoned their children, 1HJ224-226 and caused all Plaintiffs to suffer an intentional infliction of
emotional distress ^[227-229.
G. Newly Discovered Evidence of Witnesses’ Recantation Discovered In Mr. Udoh’s
Post-Conviction In 2018
On April 10, 2018, Mr. Udoh initiated a State post-conviction action raising several issues
or claims of constitutional violations and seeking reliefs. Amongst the issues or claims raised for
post-conviction relief, Mr. Udoh raised the Ground that - Mr. Udoh is entitled to an acquittal and
release based on the newly discovered exonerating evidence showing actual innocence which is
based on recantations of key material witnesses’ testimony for relief as described in Mr. Udoh first
post-conviction petition. Mr. Udoh’s first post-conviction petition was supported by Recantations
Affidavits bv K.K.W.. and K.C.W. to Judge Tamara Garcia Report and was filed on April 10, 2018
in the State District Court. Mr. Udoh sought relief for an evidentiary hearing to be held to examine
the material facts and allegations surrounding Mr. Udoh’s first post-conviction petition. On June
15, 2018, the State post-conviction court issued an order denying the post-conviction petition in
part and granting an evidentiary hearing in part on the issue of witnesses’ recantation. On June
18, 2018, the State post-conviction court issued a scheduling order for an evidentiary hearing to
be held on July 27, 2018. On July 11, 2018, the State post-conviction court issued an order denying
Petition By Udoh - Page 7

Mr. Udoh’s request for subpoena(s) of witnesses (Krista White, Christa Groshek, Kelly Moore, Davi
E. Axelson, Donothan Bartley, Ann Norton, Melissa Malecha, Molly Lynch, Joanne Wallen, Karen
Wegerson, Ann Mock, Bill Koncar, Grace Werner Ray, Dr. Linda Thompson, Catrina Blair,
Patricia Harmon) in part and granting Mr. Udoh’s request in part (Mr. Bond, Tonya Udoh
K.C.W., K.K.W., and Bobby Woody).
H.

First2 Evidentiary Hearing In 2018
Amongst the people subpoenaed (Vol. I, Tr. 2, L19 - 25) for this case as witnesses for the

evidentiary hearing were Mr. Bond (Vol. I, Tr. 2, Tr. 3 - 110) and Krista White (Vol. I, Tr. 11 - 35).
Before receiving evidentiary testimony from both recanting witnesses, Mr. Udoh made repeated
objections and renewed motions with regards to Krista White’s subpoena. That Krista White is a
testifying witness at the evidentiary hearing while actively representing the State on the grounds
that Krista White’s credibility was relevant to the issue of witnesses’ recantations because:
Krista White (“Ms. White”) had direct “conversations ... [and interviews] with the
girls [recanting witnesses before trial while actively prosecuting this case in 2014]
that [Mr. Udoh] has questions about” in (Vol. I, Tr. 11, L21 - 23), that Ms. White
didn’t file a certificate of representation in this post-conviction proceeding on behalf
of the State (Vol. I, Tr. 27) and that Ms. White’s representation raises a conflict of
interest with her acting on behalf of the State, and this will preclude [Mr. Udoh’s]
due process right to a full and fair evidentiary hearing in (Vol. I, Tr. 11 - 36).
The State was represented by Christina Warren and Krista White (Vol. I, Tr. 1, L16-19; Tr.
2, L13-15; Vol. II, Tr. 150; Vol III. Tr. 350, Vol. IV, Tr. 416). Mr. Udoh appeared pro se (Vol. I, Tr.
1, L19; Tr.2, L2-11; Vol. II, Tr. 150; Vol III. Tr. 350, Vol. IV, Tr. 416) after the State Public Defender
Office declined legal representation as evident in state district court record. Pursuant to §590.04,

2 First Evidentiary Hearing refers to the evidentiary hearings held on July 27, July 30, 2018
through August 01, 2018.
Petition By Udoh - Page 8

because the State Public Defender Office represented Defendant3 on his direct appellate review in
A14-2181. The State Public Defender Office declined Defendant’s request for legal representation.
Defendant was indigent and proceeded in forma pauperis (IFP) at the district court during the
first evidentiary hearing (Vol. I, Tr. 22, L13-20) without any legal representation. See Index No.
182 (order granting IFP on July 24, 2018) and Index No. 183 (supplemental order for proceeding
IFP on July 24, 2018). Minn. Stat. §590.04 is unconstitutional to the extent that §590.04 does not
contemplate legal representation to indigent prisoners who have been granted an evidentiary
hearing because the complete lack of legal representation at the first evidentiary hearing was
prejudicial to pro se defendant because the evidentiary hearing record clearly shows that this case
was “complicated” as recognized by the district court in (Vol. I, Tr. 3, L9 - 12; Tr. 3 - 10; Tr. 34,
L21 -25; Tr. 35) on the legal issue of whether or not to advise the recanting witnesses of any Fifth
Amendment rights against self-incrimination (that was not given to the recanting witnesses when
they testified at trial in 2014) before testifying at the evidentiary hearing in (Vol. I, Tr. 6, 8, 10,
24, 28; 83 - 85; 97 - 106) and by the testimony of Mr. Bond, a legal expert, attorney and notary
public in (Vol. I, Tr. 40, L13-19; Tr. 41, Ll-7; Tr. 54, L6-9)) that:
(a) Defendant (pro se), not being familiar with the Rules of Criminal Procedure,
served him (whose status at the evidentiary hearing was to act as the attorney
representing the two recanting witnesses who are coming to testify) with a court
ordered subpoena to be a witness in (Vol. I, Tr.3); (b) Defendant does not have the
legal knowledge as to know what to object to, as to cross-examinations and
questionings of witnesses, in which the rules of evidence that applies to both civil and
criminal cases allows to protect Defendant’s interest in an evidentiary proceeding in
(Vol. I, Tr. 9; Tr. 82, L17 - 25; Tr. 83 -85); (c) anything that will stop Defendant from
having access to witnesses would probably be unconstitutional and could potentially
affect Defendant’s case by precluding the defendant’s right to call witnesses, to

3 Defendant used in this section refers to Mr. TJdoh during the state court evidentiary hearing.
Petition By Udoh - Page 9

protect their cases, and the right to confront cases of their adversary in (Tr. 82 - 85);
and (d) is one of the reasons why he thinks witnesses would require counsel.
At the July 27, 2018 evidentiary hearing, Mr. Bond testified to the best of his recollection
on what the girls (recanting witnesses) told him when he first met the girls back in March 2018 to
notarized their affidavits (Tr. 61 - 62). That the two girls (K.K.W. and K.C.W) told him the same
thing (Tr. 62, 72 - 73). That K.K.W. and K.C.W. were not under any threat, force, intimidation or
no fear (Tr. 43) when they signed the affidavits in his office (Tr. 42 - 43). That they were not
promised anything for signing the affidavits (Tr.43 - 44). That they told him that it was their own
voluntary action to sign the affidavits (Tr. 43). To the best of his recollection, Mr. Bond testified
that they (recanting witnesses) had been pressured to give a testimony in a criminal charge against
their stepfather, Mr. Udoh. (Tr. 41). K.K.W. and K.C.W. told him that they had been pressured to
give that testimony. That it wasn’t really their intention, and they were also afraid for fear of what
could happen to them (Tr. 42). That he thinks K.K.W. and K.C.W. indicated also that they had
been threats made to them, that if they did not testify in that criminal trial by whoever directed
them to so testify, and that if they did not testify the way that they were ordered to testify, that
their mother would be in trouble. That their siblings would be separated (Tr. 42).
Mr. Bond also testified to the circumstances under which K.K.W and K.C.W signed the
affidavits. That when he spoke to their mother, she told him that, all she did here was to provide
transportation for the girls. That this is their (K.K.W. and K.C.W.) voluntary action (Tr. 42). That
K.K.W. and K.C.W. told him that nobody in their school asked them to do this (Tr. 43). That nobody
asked them (K.K.W. and K.C.W.) to do this (Tr. 43). That when he asked them why, they (K.K.W.
and K.C.W.) told him that they had been very sad. That their conscience has been guilty. That
they felt that they lied or done some evil and that they wanted to unburden their conscience from
what they thought they had done wrong (Tr. 43). That they (K.C.W.) told him that somebody else
Petition By Udoh - Page 10

typed up the affidavit for them (K.C.W.) in (Tr. 62 - 63). That he does not know who typed it (Tr.
63). That their mother did not type the affidavits for them (Tr. 63).
On July 30, 2018, the district court issued a protected person DANCO (no-contact order)
with the recanting witnesses against Defendant. On July 30, 2018, the district court filed
Defendant’s motion for IFP Status and update on the service of his subpoenas in Index No. 193.
On July 30, 2018, the district court filed Defendant’s motion for subpoena(s) of the witnesses’
denied-in-part in Index No. 192.
I.
The Recanting Witnesses’ (K.K.W., and K.C.W.) Were Apprised Of Their Fifth
Amendment Right
Defendant called his second witness (K.K.W.), one of the recanting witnesses. But before
direct and cross-examination, Mr. Geoff Isaacman from Hennepin County Public Defender’s Office
and the post-conviction court apprised K.K.W (recanting witness) of her Fifth Amendment right
against self-incrimination; not to testify in this case and that if she chooses to testify, that it could
open her up for the possibility of criminal charges in the future (Vol. II, Tr. 153 - 157). K.K.W.
expressed to both the post-conviction court and Mr. Issaacman that she wanted to testify here
today (at the July 30, 2018 evidentiary hearing) and waived her potential Fifth Amendment right
to testify to the truth in (Vol II, Tr. 158 - 221).
Defendant called his third witnesses (K.C.W.), the second recanting witness. As with
K.K.W., K.C.W was also apprised of her Fifth Amendment right not to testify in (Vol II. Tr. 226
231). That she has a right to continue to invoked her Fifth Amendment right to nullify or void any
given evidentiary testimony. That the fact that she is a juvenile makes her situation a little bit
different than her sister’s (K.K.W.). By waiving her Fifth Amendment right, K.C.W. exposure
would be as a potential delinquency rather than as a criminal charge. K.C.W informed both Mr.
Isaacman and the post-conviction court that she wanted to testify, that she is choosing to testify
Petition By Udoh - Page 11

anyway, that it is her desire to go ahead and testify today (at the July 30, 2018 evidentiary hearing)
to the truth in (Vol. II, Tr. 232 - 327).
J. Evidentiary Hearing Testimony Of The Recanting Witnesses’ (K.K.W., and
K.C.W.) For Newly Discovered Evidence, And To Vacate The Judgement And Order
Under Fed. R. Civ. Pro. 60(B)
K.K.W. and K.C.W. remembered Defendant as their step-father. K.K.W. and K.C.W.
remembered living with Defendant and their biological mother around the age of thirteen for
K.K.W., and eleven for K.C.W. (Tr. 232 - 234). That during that time, K.K.W. was attending Maple
Grove Junior High School from April 2012 through February 2013 (Tr. 159) and K.C.W. was
attending Oak View Elementary during June 2012 through February 2013 (Tr. 233). K.K.W. and
K.C.W. were removed from their family home in February 2013 and was placed at St. Joseph home
because of a story that K.K.W (her sister) made up (Tr. 233, 241). That they remembered telling
that story to Don Bartley (hereinafter as “DB”); CornerHouse Interviewers4, Grace Ray
(hereinafter as “GR”) and Bill Koncar (hereinafter as “BK”); Dr. Linda Thompson (hereinafter as
“LT”), to a therapist lady named Elizabeth Bergman (hereinafter as “EB”) in (Tr. 160, 188 - 189)
before testifying at Defendant’s trial. K.K.W. and K.C.W. remembered testifying against
Defendant in a trial in August 2014 (Tr. 234). That during that time, K.K.W. and K.C.W. were
living with their biological father (Tr. 161 - 162, Tr. 234, 250, 255, 258, 280) and not with their
biological mother (Tr. 259). K.K.W. and K.C.W. remembered Krista White, who was their lawyer
or attorney (Prosecutor of the case: Attorney-client communication) in (Tr. 162, Tr. 241). That they
(K.K.W. and K.C.W.) talked to Ms. White in her office before trial more than once (Tr. 162, Tr. 241,
246 - 247, 273, 281). That when they spoke to Ms. White in her office. Molly Lynch (hereinafter as

4 Referring to Ex. 4 and 7 in the trial record on the CornerHouse videotaped interview of K.K.W
and K.C.W on February 25, 2013.
Petition By Udoh - Page 12

“ML”) was also present (Tr. 162 - 163, Tr. 241-242, 273). K.C.W. testified that her sister (K.K.W.)
was also there (Tr. 242) at some point (Tr. 273 - 274, 276). That they have never heard of the word
“victim advocate” and don’t know what a victim advocate is (Tr. 163, 276). K.C.W testified that she
don’t remember meeting and talking to anyone like that, and does not recognized the name “Anne
Burgoyne” (Tr. 276). K.K.W testified that there was no person, who identified herself or himself as
a “victim advocate” present at the office meetings with Ms. White (Tr. 163).
K.K.W testified that one her classmate (Hannah) in Junior High School told her to say that
Defendant did touched her in an inappropriate way (Tr. 173-174, 188-189) to get her phone back
(Tr. 217, L17-19). That when she (K.K.W) testified at Defendant’s trial, she had to say that the
incident did happen (Tr. 164, Tr. 217, L6-10). K.C.W. testified that her sister (K.K.W.) lied about
being sexually abused by her stepdad for all those years (Tr. 300 - 301). That her sister (K.K.W.)
made all of that story up because her (K.K.W.) phone got taken away, and K.K.W. was upset (Tr.
300 - 301). That when she (K.C.W.) testified in 2014 at trial, that Defendant touched her
inappropriately (Tr. 235), she did that because she was scared, threatened, intimidated and she
(K.C.W.) testified out of fear (Tr. 235, 281). K.K.W testified that when she (K.K.W.) was removed
from her home in February 2013, she was not taking her medications (Tr. 184). That she (K.K.W.)
took medications for epilepsy and ADHD (Tr. 183). That when she (K.K.W.) talked to Ms. White,
DB, GR, LT and EB before trial, that Ms. White, DB, GR, LT and EB never asked her if she was
on her medications (Tr. 184 - 185). That when she (K.K.W.) testified at Defendant’s trial, she was
not taking her medications (Tr. 184). That she had fell under depression at the time she had to do
the testifying and trial stuff, and it just led her to a point where she got confused on everything
(Tr. 184). K.C.W. testified that she takes no medications (Tr. 249). That her sister (K.K.W.) takes
medications for ADHD and seizures (Tr. 249). That sometimes her sister (K.K.W.) forgets to take
Petition By Udoh - Page 13

her medications (Tr. 250). That she don’t think her sister (K.K.W.) was taking her medications or
pills during Defendant’s trial in 2014 (Tr. 251). That when her sister (K.K.W.) don’t take her pills
she kind of acts a certain way and now, K.C.W. understands how medications can affect somebody
at that age (Tr. 300 - 301). K.K.W. testified that she took her medications for epilepsy and ADHD
before testifying at the evidentiary hearing (Tr. 183).
K.K.W. and K.C.W. testified that they have not heard of the words - “Miranda Warning”
and “Tennessen Warning” before (Tr. 182, Tr. 248). That Ms. White, Joanne Wallen (hereinafter
as “JW’), DB, GR, BK, LT, and EB never gave them those warnings when they talked to them (Tr.
182 - 183, Tr. 249) before trial. K.K.W. testified that she has never heard of the word “Perjury”
and does not know the meaning of the word (Tr. 180). That nobody told her about the penalty of
perjury or the possibility of being charged if she lied on stand at the time she testified in 2014 (Tr.
181). That even if somebody had told her about the penalty of perjury, she would still had testify
(Tr. 181) because of the threat that was made towards her (Tr. 181 - 182) about her mother and
brothers. K.C.W. testified that she just heard of the word “Perjury” today at the beginning of the
evidentiary hearing when she was being advised by Mr. Isaacman (Tr. 248). That if they had
warned her about the penalty of perjury before testifying at Defendant’s trial in 2014, she wouldn’t
have said the same thing because it will scare her (Tr. 248). That her and her sister (K.K.W) lied
about being sexually abused (Tr. 307). That she didn’t want her sister ever to get in trouble (Tr.
301).
K.K.W. and K.C.W. testified that they don’t feel threatened by Defendant and Ms. White
(Tr. 163, 242). That they felt safe and comfortable by Defendant and Ms. White asking them
questions at the evidentiary hearing related to what they had said in 2013 to Detective Melissa
Parker (hereinafter as “MP”), Ms. White, JW, DB, GR, BK, LT, and EB or to what they had testified
Petition By Udoh - Page 14

to in Defendant’s trial in August 2014 (Tr. 163 - 164, 242). That they are testifying today (at the
July 30, 2018 evidentiary hearing) because they want to come clean (Tr. 218). That their biological
mother didn’t force them to testify and that nobody threatened them to give a testimony (Tr. 244)
at the July 30, 2018 evidentiary hearing. That they (K.K.W. and K.C.W.) wanted to do this all on
their own (Tr. 218, 269, 294). That their life is not in any danger right now (Tr. 221). K.C.W.
testified that she (K.C.W.) wanted her mom in court to feel comfortable while testifying (Tr. 296).
That she was not told what to say by Mr. Eric Bond or by her mother before testifying at the July
30 evidentiary hearing. K.K.W. testified that her mother never discusses or told her (K.K.W.) that
if Mr. Udoh gets deported she (her mother) is going to leave with him and move to Nigeria with
her brother (Tr. 298). That nobody or no-one told her (K.K.W) that Mr. Udoh was going to be
deported (Tr. 319). That she (K.K.W) is not doing this and did not write or draft the affidavit
because Mr. Udoh is going to be deported (Tr. 319). K.K.W. testified that she saw her mother in
the courtroom (Tr. 176, 207 - 208). That her mother wasn’t present in the courtroom when Mr.
Isaacman was advising her about her rights (Tr. 177). That she wasn’t really paying attention to
who’s back there (Tr. 220). That she was focusing on Defendant and his questions (Tr. 220). That
she don’t see her mother anymore in the courtroom (Tr. 178). That she didn’t know whether or not
her mother was not supposed to be in the courtroom (Tr. 207) or when her mother actually came
into the courtroom (Tr. 220). That she doesn’t know if her mother was a witness to this evidentiary
hearing (Tr. 284). That her mother never told her (K.C.W.) that she (mother) was a witness to this
evidentiary hearing (Tr. 284 - 285). That she wanted and preferred her mother to be present in
the courtroom (Tr. 208, Tr. 213 - 214), just so she could feel comfortable and not traumatized by
those questions in the courtroom (Tr. 213 - 214).

Petition By Udoh - Page 15

K.K.W. testified that she told them (MP, JW, DB, GR, LT, and EB) that those alleged
incidents of inappropriate touching by Defendant and exposure of Defendant s private body to her
never happened (Tr. 171). That she never told her mother about any alleged incident of
inappropriate touching and exposure (Tr. 174). That she “told Don Bartley, when he was
questioning [her] at the school, that this [alleged incident of abuse] never happened. When he [DB]
was recording [her] at the time that we were -- that [K.K.W.] was being questioned, [K.K.W.] had
told him it never happened, although he did stop his recording and had told [her] that that is not
what [her] sister had said” (Tr. 205, L15-21; Tr. 215). That DB recorded her (K.K.W.) twice (Tr.
214 - 215)5. That in the first recording, K.K.W. said that none of these things happened (Tr. 215).
That she (K.K.W.) “had told them that this never happened” (Tr. 205). K.C.W. testified that what
she told DB In the beginning that it never happened was the truth (Tr. 243). That she told DB that
Defendant never touched her inappropriately or abused her (Tr. 238 - 240, 255). That she said the
truth at that point in time (Tr. 240, 243, 255, 275, 291, 300). That she was scared at trial to say
the truth (Tr. 251, 278, 325).
K.K.W. testified that Defendant never told her (K.K.W) not to tell anyone or her biological
mother (Tr. 203). K.C.W. testified that what she told her mother about what her stepdad was
allegedly doing to her was not true, that she mad that up too (Tr. 256, 293, 324). That when she
spoke to Ms. Bergman (EB) and LT, they did not record her conversations with them (Tr. 282, 316).
That she felt traumatized, uncomfortable and abused when she went through the medical
examination (Tr. 292, 301-302, 316-317)6. That she (K.C.W.) recanted to the therapist (EB) before

5 Referring to the undisclosed Don Bartley’s audiotaped interview with K.K.W on February 21
2013.
6 Refers to the CornerHouse Forensic Examination conducted on March 6, 2013 by Dr. LT.
Petition By Udoh - Page 16

trial (Tr. 313 - 314, 323) that these things never happened. That Ms. Bergman (EB, the therapist)
did not show her a copy of what she (K.C.W.) said during their sessions (Tr. 282 - 283, 316). That
assuming EB had shown her a copy of her conversation, she would have corrected her (Tr. 283).
That she felt like, she knew everything that she was telling Ms. Bergman, that Ms. Bergman was
also telling or informing the prosecutorial team, Ms. White (Tr. 279, 314). That while they were
living with Defendant and their mother, that Defendant never touched them, either with his finger
or his private part, inappropriately in their private part (Tr. 169, 253 - 254) or to check her
(K.C.W.) to see if she was having sex (Tr. 253 - 254). That Defendant never exposed his private
part to them (Tr. 169, Tr. 237, 257, 253, 280, 293, 300, 302, 316 - 317, 325). K.C.W. testified that
the allegation that Defendant touched or exposed his private parts to her inappropriately between
June 2012 through February 19, 2013 is not true (Tr. 237, 253, 280, 293, 300, 302, 316, 317, 325).
That Defendant never touched her private part with his hand or finger (Tr. 237, 252 - 253). That
those alleged touching incidents in her trial testimony was false (Tr. 243, 253 - 254, 293). That
she lived outside Minnesota, in Arkansas with her grandma before trial or before we started it (Tr.
320). That somebody threaten and force her to give a testimony in Defendant’s trial (Tr. 249). That
it was against her will to testify against Defendant at trial in 2014 (Tr. 249).
That those alleged incidents that they told JW, DB, MP, BK, about Defendant touching and
exposing himself to them, was not true and never happened (Tr. 170 - 171, 141, 255). That they
never told her biological mother about any incident with regards to Defendant acting sexually
inappropriately towards them (Tr. 174, 187, 203, 256, 293, 324). That her (K.K.W.) mother never
told her (K.K.W) that she should always go with her sister (K.C.W.) to defendant’s room (Tr. 174).
That when Defendant called her to his room, it was mainly for, to talk about school-related stuff
(Tr. 175) but was never for touching and exposing himself towards her. That those alleged
Petition By Udoh - Page 17

incidents that they testified in 2014 about defendant’s touching and exposing himself to them, is
not true and never happened (Tr. 169, Tr. 237, 253, 280, 293, 300, 302, 316, 317, 325). K.K.W. and
K.C.W. remembered being shown at trial in 2014, a picture of an anatomical diagram of a male
and a female private parts. K.K.W. testified that she knew of those specific private parts (on a guy
and a female) through a health class (Tr. 171 -172). K.C.W. testified that she was showed or shown
the anatomy picture during the Cornerhouse interview and that it wasn’t new to her at that point
or during her trial testimony (Tr. 243 - 244). That she already knew about those body parts (Tr.
243 - 244). That about four (4) years after trial in 2014, her mother never talked to or discussed
with them about what happened to Mr. Udoh’s or about Mr. Udoh’s case (Tr. 187, Tr. 261, 306,
318) or about her (mother’s) trial testimony with them (Tr. 257, 261, 300). That her mother don’t
discussed her (mother’s) life problems or situations with her (K.C.W) in (Tr. 260, 284 - 285, 297,
300, 309). That during visitation before trial, she (K.C.W) was told not to and wasn’t allowed to
talk about the case with her mother (Tr. 325 - 326). That was the reason why she (K.C.W.) hasn’t
talked to her mother about this (Tr. 326). That her mother talked to or discussed with her (K.C.W)
about her (Mother’s) life in general (Tr. 187).
K.K.W. testified at the July 30, 2018 evidentiary hearing that before she testified at
Defendant’s trial in 2014, that a lady just told her once in the morning (Tr. 175 - 176) that: if her
story didn’t match with her sister’s (Tr. 182), her mother was going to go to jail, her little brothers
(C.U. and C.U.) was going to be taken away from her mother, and she was not going to be able to
see them again (Tr. 172). That she was scared of the people (Tr. 173) and what would have happen
if she admitted to it (Tr. 173). That was the reason why she testified against Defendant in trial
(Tr. 172 - 173, 182). That her sister was also in the room with her when the lady had said it (Tr.
176). That the police officer. NOT detective Mollv Lvnch (“ML”) told her: “[t]hey said that [she]
Petition By Udoh - Page 18

was lying and told [her] to shut up and get in the car” in (Tr. 200, Ll-9). K.K.W. also testified at
the July 30, 2018 evidentiary hearing that ML also threatened her (Tr. 200 - 201, 216) that: if her
story didn’t match with her sister’s, her mother would go to prison and she would no longer get to
see her brothers. That Ms. White was present (Tr. 201) when ML said that at the Juvenile Justice
Center in a conference room. That this incident happened before she testified at Defendant’s trial
in 2014 (Tr. 202) at the Hennepin County Government Center. That she testified the way she did
at Defendant’s trial because of ML’s threats (Tr. 202 - 204).
K.C.W. testified that it was a girl (lady) that threatened her (Tr. 251 - 252). That the girl
or lady threatened her more than one time (Tr. 252, 276). That someone told her that her mother
will go to prison (Tr. 247, 275). That she was told by ML that her mother wasn’t cooperating and
that her mother had their stepfather living in the house (Tr. 275 - 276). That this incident of threat
also happened before she went to CornerHouse interview (Tr. 298). That during that time, her
(K.C.W.) and her sister (K.K.W.) were talking about it (Tr. 299, 301, 307). That she thinks in her
opinion, that this threat was made to scare or frighten her in some type of way (Tr. 247). That she
believed them (Tr. 247). That those are the words that made her fear or threatened (Tr. 252). That
the second time this incident of threat was before the trial (Tr. 276). That (Ms. White and ML)
mostly just told her repeatedly just to match her story with her sister and everything would be
done quickly (Tr. 247, 273, 276, 281, 283, 291, 312). K.C.W. also testified that somebody promised
her about matching statements (Tr. 247). That this threat and promise incidents happened:
well, the first time was when they (K.C.W. and K.K.W.) were in a lobby (Tr. 276), and
there was a bunch of chairs (multiple chairs) at the Juvenile Justice Center. That it
wasn’t in, like, the courtroom or Hennepin Government Center (Tr. 274, 299). That
they pulled her into a room by herself (“myself’), and they told her that, as long as
her (K.C.W.) story matches her sister’s (K.K.W.), we (they) would be done quickly (Tr.
252, 273 - 277, 281 - 282, 299).

Petition By Udoh - Page 19

That there were two girls (ladies) with her (Tr. 252). That she knew her story had to match with
her sister’s (K.K.W.), so she had to tell the other people about it (abuse) too (Tr. 292). So she
thought she can go home with her mother and see her brothers again and everything would be fine
(Tr. 247).
K.K.W. and K.C.W. remembered signing and notarizing the statement they made in Mr.
Eric Bond’s Office on March 18, 2018 (Tr. 164 - 165, 196; Tr. 245, 269, 285 - 286, 288, 311). That
her mother just drop them off at Mr. Bond’s Office (Tr. 259). That her mother wouldn’t be in the
room with them at Mr. Bond’s Office (Tr. 259, 267 - 269). That Mr. Bond was their Attorney (Tr.
267 - 269, 289 - 290). That her mother’s phone number changed (Tr. 323). K.K.W. testified
that she didn’t know it was going to be an affidavit (Tr. 191 - 192) at the time when she decided
to write it just as a letter. K.K.W. was living in Texas (Tr. 186, 189 - 195) when she drafted the
contents of the letter that finally became a recantation affidavit (Tr. 167, 189 - 195). K.C.W. also
testified that K.K.W. currently lives in Texas (Tr. 268, 291). K.K.W. was living with her father in
Glencoe, Minnesota before she moved to Texas (Tr. 186, 191). K.C.W. currently lives with her
biological father (Tr. 234, 268). That nobody gave them (K.K.W. and K.C.W.) an idea to write this
recantation affidavit (Tr. 175, 189; Tr. 244). That her mother or dad had no idea that she was
writing or drafting the contents of the recantation affidavits (Tr. 178 - 179, 189, 193 - 194).
K.K.W. and K.C.W. testified that they wrote or drafted the contents of these affidavits (Tr.
185; Tr. 235, 261). That neither Defendant nor Mr. Bond asked them to draft or write these
affidavits (Tr. 179, 193; Tr. 245 - 246). That Defendant have never being in contact with them (Tr,
17, 187, Tr.245), even through their mother (Tr. 294). That they were not threatened by anyone to
write or draft these recantation affidavits (Tr. 179, Tr. 245 - 246). That they were not promised by
anybody for signing these recantation affidavits (Tr. 179, 246). That they weren’t or wasn’t under
Petition By Udoh - Page 20

any kind of threat, force, fear or intimidation, or danger when they drafted and signed the
recantation affidavits (Tr. 179, Tr. 245 - 246). That no one or nobody forced them to draft or write
these recantation affidavits (Tr. 179; Tr. 245, 288, 294).
K.K.W. testified that the reason she drafted the recantation affidavit was basically how she
was feeling of the whole situation and that she wanted to come forward and clear her conscience
(Tr. 167, 175). That she was sacred of the whole thing with the police, social worker and all of the
people that she was told to talk to (Tr. 168). That at the time when she (K.K.W) was living in
Texas, she would get flashbacks of the moments and it took a very hard toll on her. That she
(K.K.W) started feeling guilty for it. It led to the point where she got depression and she needed to
come clean and to tell the truth because she felt guilty of what she did (Tr. 169 - 170, 192, 196,
218). That she did not discuss the contents of her recantation affidavits prior to her writing or
drafting it (Tr. 193). That she (K.K.W.) talked to her sister about the affidavits after her draft (Tr.
192, 193). That she showed her sister her drafted letter (Tr. 192 - 193). That it was her sister’s
(K.C.W.) own idea to write or draft her own letter that finally became a recantation affidavit (Tr.
192 - 193). That she knew she wanted to send the affidavit to the court or judge (Tr. 318 - 319) to
tell the truth, to clear her conscience and to come clean (Tr. 319).
K.C.W. testified that she came forth with this information because she feel guilty because
she lied, and she wants to come forward and tell the truth and just let it off her conscience (Tr.
233, 237, 244, 285, 289, 293 - 294, 318 - 319, 326). That she came clean because the she felt guilty
now, and it’s just been haunting her and weighing on her for a really long time (Tr. 251). That she
didn’t want to talk about it (Tr. 261). That she did not tell her dad or her dad’s wife (Jenny) because
she was scared of how people would look at her (Tr. 295). That she talks to nobody before she wrote
the affidavit (Tr. 261 - 262). That she initially wrote her letter first and then talk to her sister
Petition By Udoh - Page 21

about it (Tr. 262). That they (K.K.W. and K.C.W.) both talked about how they felt guilty in brief
moments in those four (4) years (Tr. 308 — 309) and she told her sister that “we should probably
come out and say something about it” (Tr. 262, 308 - 309). That she knew she needed an affidavit
through her own independent research on Google to recant her statements (Tr. 265 - 266, 288,
303). That she did not write the affidavit because she missed or felt pity for her mother (Tr. 283 285). That she is not doing this because of her mother (Tr. 294) or because of Mr. Udoh is being
deported (Tr. 298, 319). That she wrote the affidavit first, and then her uncle Richie Heng
(hereinafter as “RH”) helped her typed it (Tr. 244, 269 - 270, 287) because an employee of Wells
Fargo Bank told her that she (K.C.W.) needs to type it (the affidavit) before it can be notarized for
court purpose (Tr. 286 - 287). That the Wells Fargo Bank employee told them that, it has to be a
typewritten affidavit (Tr. 262 - 265), instead of a handwritten version for it to get notarized (Tr.
263 - 265). That her uncle did not make any changes (Tr. 270, 272, 287). That she was with him
when he was typing it (Tr. 271 - 272, 287). That there were some “rewords” changes she made (Tr.
287). That the final version of the affidavit was “only the one [she] wrote, just the one [she] wrote”
(Tr. 272). That her mother only knew about the affidavit or letter because she (K.C.W.) couldn’t
notarize the handwritten version on Saturday, March 17, 2018 at the Bank (Tr. 287 — 288). That
her mother has a copy of the one she wrote or drafted by hand (Tr. 244, 285). That her sister
(K.K.W.) wrote her own affidavit by herself without her (K.C.W) help or assistance (Tr. 262).
The recantation affidavits from K.K.W and K.C.W were re-signed by K.K.W and K.C.W. at
the evidentiary hearing. Both the re-signed signatures from K.K.W and K.C.W matched the March
2018 affidavits. The recantation affidavits from K.K.W and K.C.W were entered as evidence into
the evidentiary hearing record without an objection (Tr. 166 — 167; Tr. 235 — 237) as Exhibits 1
and 2 in (Vol. II) transcripts. The recantation affidavits and recantation testimony are exculpatory
Petition By Udoh - Page 22

J

facts clearly showing that no incident of sexual abuse happened between April 2012 through
February 2013 in Defendant’s home or within the Hennepin County Jurisdiction. The recantation
affidavits and recantation testimony are impeachment evidence related to the threats, the
demands, the pressure, the coaching, the coercions, the benefits, and the promises made to K.K.W.
and K.C.W. to give a statement ofsexual abuse against Defendant between February 2013 through
August 2014, and a trial testimony of sexual abuse against Defendant in August 2014.
After receiving evidentiary hearing testimony from K.K.W. and K.C.W., Defendant re­
requested or renewed his motion for subpoena(s) to call - Ms. White, Christa Groshek, Kelly Moore
Davi E. Axelson, Donothan Bartley, Ann Norton, Melissa Malecha, Molly Lynch, Joanne Wallen,
Karen Wegerson, Ann Mock, Bill Koncar, Grace Werner Ray, Dr. Linda Thompson, Catrina Blair,
Patricia Harmon - as witnesses to the case because he has produced enough evidence for them to
be a witness in this case (Tr. 340 - 348).
REASONS FOR GRANTING THE WRIT
The issues presented in this case is beyond the particular facts and parties involved but for
growing interest of the public, society at large and integrity of the judicial system. This is a case
where the parents tried to secure a legal counsel before and following dismissal but to no avail.
See ECF No. 5. The lower courts holding cannot be squared or reconciled with this Court’s decisions
on constitutional law. Most significantly, the lower courts decided important constitutional claims
in a way that conflicts with relevant decisions of this Court and has so far departed from the usual
and accepted course of justice. Allowing such decision to hold will affect other similarly situated in
Petitioner’s situation because the same Defendants-Resnondents have instituted another
maltreatment finding and have also initiated a proceeding to terminate the rights of the parents

Petition By Udoh - Page 23

>

in 2018/2019 based solely on prior false determinations in 2013/2014. See (In re SSIS 574330451
and 27-JV-18-5208).
This further underscores the importance of granting review in this case. On all grounds, the
magistrate and district Court erroneously relied on cases using summary judgment standard
instead of Rule 12(c) and 12(b) standard or cases. In relying on these inapposite cases, the lower
court erroneously held “pro se litigants” to “counseled litigants” legal standards. Petitioner
respectfully ask this court to liberally construe their arguments, to consider all claims or issues
raised because manifest injustice would result if these issues and arguments are not considered
for review.
I. THE LOWER COURT ERRED IN THE DENIAL OF PLAINTIFF’S MOTION
BASED ON THE NEWLY DISCOVERED EVIDENCE TO VACATE THE
JUDGEMENT AND ORDER UNDER FED. R. CIV. PRO. 60(B).
A. Standard of review
The factual findings of the district court are reviewed for clear error and its legal conclusions
are reviewed de novo, even where it involves mixed question of fact and law. Heartland Acad.
Cmty. Church v. Waddle, 427 F.3d 525 (8th Cir. 2005). This standard of review applies to all
Petitioners’ issues raised through section I to X. This court reviews denial of motion and/or leave
to amend a complaint, motion to dismiss and for judgment on the pleadings de novo with the
district court’s application of federal and state laws. Syverson v. Firepond, Inc., 383 F.3d 745, 749
(8th Cir. 2004). For pro se complaint, this Court “hold the district court to the requirement of liberal
construction.” Stone v. Harry, 364 F.3d 912 (8th Cir. 2004). Dismissal of a pro se complaint is
inappropriate unless it appears beyond doubt that the plaintiffs can prove no set of facts
in support of his claim which would entitle him to relief.” Haines v. Kerner, 404 U.S. 519
(1972); Ulrich v. Pope County, 715 F.3d 1054, 1058 (8th Cir. 2013); Davis u. Monroe County Bd, 526
Petition By Udoh - Page 24

J

U.S. 629 (1999)(same); ECF No. 101 at 28-29 (same). Furthermore, this Court reviews the “clearly
established” prong de novo. See Nelson v. Correctional Medical Services, 583 F.3d 522 (8th Cir.
2009).
The district and magistrate court clearly erred under Haines standard and under the
reasoning of Rickinyer v. Browne, 995 F. Supp. 2d 989, 1026 - 27 (D. Minn. 2014), because when
faced with a motion to amend and a motion to dismiss the same complaint, the court should have
consider Plaintiffs’ motion to amend first because (a) in Coleman v. Correct Care Solutions, 559
Fed. Appx. 601 (8th Cir. 2014), the circuit court held that an amended complaint supersedes the
original complaint, and (b) when a complaint is supported by Exhibits, the circuit court in Brown
v. Medtronic, Inc., 628 F.3d 451, 460 (8th Cir. 2010) require courts to consider such documents.
First, this Court and Eighth Circuit have a separate and specific standard of review for
dismissing a pro se litigant claim in light of Haines', Whitson v. Stone County Jail, 602 F.3d 920
(8th Cir. 2010); Wishnatsky v. Rovner, 433 F.3d 608 (8th Cir. 2006) (held pro se to a liberal, less
stringent pleading standard); argued in ECF No. 99 at 3 - 4 (on legal standard), ECF No. 101 at
3, ECF No. 102 at 5, ECF No. 118 at 3 before the magistrate court. This Court has never held “pro
se litigants” to the same legal standards as “counseled litigants” in a civil action. Therefore, since
the magistrate and district court did not apply Haines standard before dismissing any of Plaintiffs’
claims, both courts applied incorrect legal standards to Petitioners’ motion and/or request for leave
to amend the complaint. Reversal and remand is necessary on this ground. Furthermore, because
Twombly and Iqbal were formal pleadings drafted, filed and arsued by trained counsel, both cases
do not alter the judicial “pro se litigants” liberal construction philosophy under the reasoning of
Phillips v. County of Allegheny, 515 F.3d 224 (3rd Cir. 2008); and Reyes v. Downey, S & L Ass’n,
FA, 541 F. Supp. 2d 1108 (C. D. Cal. 2008)(notice pleading standard).
Petition By Udoh - Page 25

Second, even if “counseled litigants” legal standards applies to Petitioners, the amended
complaint with “specific facts” in the supporting Exhibits7, Defendants’ Exhibits8, and the
additional facts alleged in Petitioners oppositions’ briefs9 in light of Berman v. Young, Id at 1038
(collecting Seventh Circuit decisions allowing Plaintiffs to assert additional facts in opposition
briefs) satisfies Twombly and Iqbal standard under the reasoning of (a) Johnson v. City of Shelby,
(2014) in stating simply, concisely and directly events warranting reliefs; (b) Berman v. Young, Id
at 1038; Erickson v. Pardus, 551 U.S. 89 (2007) allowing legal conclusion to be pleaded in pro se
complaint; (c) Braden v. Wallmart Stores, Inc., 588 F.3d 585, 595 (8th Cir. 2009) for ignoring
reasonable inference in Petitioners’ favor for any “specific facts” in the Exhibits that is in conflict
with the complaint; (d) Skinner v. Switzer, 562 US 521 (2011) holding that Rule 8(a)(2) does not
require an exposition of the Udohs legal theories.
Third, the record supports good cause reasons against dismissal on Norton and Ray claims
because Mr. Udoh is wrongfully incarcerated, argued in ECF No. 99 at 40 (on dismissal with
prejudice fails on procedural defect because pro se pleading are liberally construed under Erickson
v. Pardus, 551 U.S. 89 (2007)), ECF No. 101 at 28 - 29, ECF No. 102 at 38 - 39, ECF No. 118 at
40 at the magistrate and district court. See ECF No. 155 at 7 - 13.
Fourth, the amended complaint with supporting Exhibits satisfies Twombly and Iqbal to
survive Defendants’ dispositive motions on official capacity, Government entities liability, and

7 Plaintiffs’ Exhibits (A-I) in ECF No. 1-1 to 1-9, Exhibits (J-M) in ECF No. 108-1 to 108-3, Exhibits
N in ECF No. 119 (both J and N were restricted).
8 Defendants’ Exhibits (1-13) in ECF No. 59-1 to 59-13 and Westin Decl., see ECF No. 68-1.
9 Plaintiffs’ opposition briefs in ECF No. 102 at 9 - 14 (on deliberate indifference).
Petition By Udoh - Page 26

private entity liability, and on qualified immunity defense grounds in light of the arguments
presented in sections below.
Fifth, under the reasoning oiMichaelis v. Nebraska State Bar Ass’n, 717 F.2d 437, 438 -39
(8th Cir. 1983) holding, the district court abuse its discretion under Michaelis and in light of Haines;
Erickson standards, and the arguments presented in ECF No. 101 at 28 - 29 (collecting cases and
arguments in support for leave to amend), the district court clearly erred for not granting
Petitioners’ leave to amend before dismissal with or without prejudices under Haines standard.
Therefore, reverse and remand is necessary on this ground because the district court “misapplied
the pleading standard of Rule 8,” Braden Id., at 598 for pro se litigants.
II. INDIVIDUAL DEFENDANTS ARE NOT ENTITLED TO JUDGMENT ON
QUALIFIED IMMUNITY GROUNDS ON ALL PLAINTIFFS CLAIMS BASED ON
THE NEWLY DISCOVERED EVIDENCE TO VACATE THE JUDGEMENT AND
ORDER UNDER FED. R. CIV. PRO. 60(B); AND PLAINTIFFS HAVE A FOURTH
AMENDMENT CLAIM REGARDING THE SEARCH AND SEIZURE OF THEIR
MINOR CHILDREN.
This court review de novo a district court’s conclusion of law on qualified immunity. The
district court did not provide a thorough determination on qualified immunity in light of Jones v.
McNeese, 675 F.3d 1158, 1162 (8th Cir. 2012) with regards to reasonable suspicion under the
reasoning of Ala. v. White, 496 U.S. 325 (1990) holding that reasonable suspicion should be based
on the totality of circumstances standard and the appellate review of reasonable suspicion is de
novo. See United States v. Arvizu, 534 U.S. 266 (2002).
First, for unreasonable search and seizure, and unreasonable interference with familial
relationship (privacy and integrity) in the context of custodial interrogations and removals of a
child, this Court in have recognized the parent and children fundamental rights. See Troxel v.
Granville, 530 U.S. 57 (2000); Heartland Acad. Cmty. Church v. Waddle, 595 F.3d 798 (8th Cir.
2010)(unreasonable seizures and familial integrity); Whisman, Id at 1310. For unreasonable
Petition By Udoh - Page 27

search and seizure, and unreasonable interference with familial relationship (privacy and
integrity) during physical and medical examination of a minor child without parental consent or
judicial authorization at home, school and at CornerHouse, this Court has never held or extended
the reasonable suspicion of abuse standard for qualified immunity defense to apply. So it was
clearly established, as at February 2013, regarding these
interrogations, removals and examinations. Safford Unified Sch. Dist. v. Redding (violates the
child’s Fourth Amendment); Dubbs v. Head Start, Inc., 336 F.3d 1194 (10th Cir. 2003) (parent
fundamental right to consent for medical treatment); Michael C v. Gresbach, 526 F.3d 1008, 101415 (7th Cir. 2008)(same).
The district court misapplied Greene, Id at 1036 - 37 to include a “force” element as a
prerequisite to implicate a parent and child’s Fourteenth Amendment right to care. The Ninth
circuit clarified using a previously held case in Wallis, 202 F.3d at 1142 that excluding a parent
absent parental consent or emergency requiring immediate medical attention violates the child and
mother’s Fourteenth Amendment due process rights. The district court conclusion cannot be
reconciled with the wealth of scientific body of research and body of clearly established laws in the
federal circuits, all requiring parental consent or emergency circumstances before any examination
of a minor child. See N. G. Ex. Rel. S.C v. Connecticut, 382 F.3d 225, 237 (2nd Cir. 2004). Tenenbaum
Id. at 867 (requiring parental consent or judicial authorization); Hearing v. Sliwowski, 712 F.3d
275, 278, 282 - 283 (6th Cir. 2013).
Some state statutes and courts have construed such examinations without parental consent
or court order to be equivalent to “sexual abuse,” see ECF No. 143 at 29 n. 22. Therefore, under
the totality of circumstances standard, Defendants examinations for finding of no signs of sexual
abuse is a relevant and “inextricably intertwined” factor to the reasonable suspicion de novo review
Petition By Udoh - Page 28

f

on the parent’s familial integrity claims in light of Croft, Id at 1127; Ripson, Id at 808; Michael C
v. Gresbach, Id at 1013 - 18; Doe v. Heck, Id at 509 - 28.
Second, this Court have been confronted with circumstances in which a child was a party to
a conversation involving an audio-and-video recording and these courts have uniformly held that
the Fourth Amendment strictures, parental consent or judicial authorization applies. See Berger
v. N. Y, 388 U.S. 41, 63 (1967); Katz v. U.S., 389 U.S. 347, 353 (1967); U.S. v. Jones, 132 S .Ct. 945
(2012); 18 U.S.C. §2510-20.
For malicious prosecution or judicial deception, clearly established law, argued in ECF No.
99 at 12 - 13, ECF No. 155 at 7 - 13 before the magistrate and district court in light of Heartland
Academy v. Waddle, 317 F. Supp. 2d 984, 1093 (D. Mo. 2004), affd 427 F.3d 525 (8th Cir. 2005)
implicates Defendant Bartley. So it was clearly established, as at February 2013, against malicious
prosecution or judicial deception and on the audio-and-video recording of minor children.
Defendants are not entitled to qualified immunity on this ground. For failure to give Tennessen,
Privacy Act of 1974 (5 U.S.C. 552a) and/or Miranda warning, it was clearly established in Minn.
Stats. §13.02; §626.556, §260C.175; Miranda v. Arizona; Stansbury v. California; J.D.B v. North
Carolina, 564 US 261 (2011). Defendants failure to comply with the strictures of these statutes,
laws and violated state and federal laws and caused the deprivation of Petitioners’ constitutional
rights in light of Maine v. Thiboutot, 448 U.S. 1 (1980); Harden v. Pataki, 320 F.3d 1289, 1293 (11th
Cir. 2003) where the violation of state law causes the deprivation of rights protected by the
constitution and statutes of the United States, cf. Brown v. Nutsch, 619 F.3d 758, 764 n.8 (8th Cir.
1980); Wirth v. Surles, 562 F.2d 319 (4th Cir. 1977)(same). So it was clearly established, as at
February 2013 on failure to comply with state and federal law. Defendants are not entitled to
qualified immunity.
Petition By Udoh - Page 29

>

Third, the district court clearly erred in ignoring reasonable inferences to be resolved in
Petitioners’ favor on reasonable suspicion determination that Defendants knew the following
information set forth in 1)151 of the Complaint before interrogations, removals, entering of
maltreatment findings and examinations under the reasoning of Braden, that each of these errors
violates the familiar axiom on judging a motion to dismiss or judgment on pleading which Twombly
and Iqbal did not change that fundamental rule. Id at 595.
The district court clearly erred under the totality of circumstances standard, see Cortez, Id
at 992; Gates, Id., at 433, and based reasonable suspicion of abuse solely on the uncorroborated
statement of an unreliable child suffering from developmental disability 1)1)54-55 where the
(original and amended) complaint allege the following set forth in 1)1)57-230:
Defendants had preconceived idea of what the child would say, the child statements were
in response to leading, improper or suggestive manner and questions, the child was given
no Miranda and/or Tennessen warning as required by law is evidence of coercion to get
false information.
Defendants knew there was no indication of any sexual abuse, threat, or danger, Whisman, Id at
1310 and the child statements are the type of statement one would expect from any 13 years old
to make. The relied on child statement did not contain enough details and specifics about what
abuse, when the abuse occurred, why the abuse happen, the location where the abuse happen, no
physical evidence for corroboration, and this court as well as other federal courts have never held
reasonable suspicion based solely on the uncorroborated statement of a child under the reasoning
of Stoot v. City of Everett, 582 F.3d 910 (9th Cir. 2009) (child statement alone cannot stand for
probable cause or reasonable suspicion); Cortez, Id at 1119 (same); Simuro ex rel. K.S. v. Shedd,
176 F. Supp. 3d 358, 378 (Dist. Ver. 2016) recently acknowledged, “it appears that no federal court
of appeals has ever found probable cause [or even reasonable suspicion] based on a child allegations

Petition By Udoh - Page 30

J

absent some other evidence to corroborate the child story,” Wesley v. Campbell, 779 F.3d 421, 430
(6th Cir, 2015); United States v. Shaw, 464 F.3d 615 (6th Cir. 2006) (same).
The risk that a child is lying need not be wholly eliminated. Rather, what is needed is that the
probability of a lying or untrustworthy child has been sufficiently reduced by corroborative facts
and physical observations. The district court clearly erred and failed to discuss the significant
reasoning of Croft in light of Ripson v. AUes because for any statement given by an informant or
child, be it anonymous or direct hearsay, the statement given must meet an independent
articulable indicia of reliability for reasonable suspicion to stand where (a) evidence of false
allesations and reputation of dishonesty exist; (b) “further investigation” Croft, Id at 1127 or “keep
investigating” Ripson, Id at 808 was required to confirm whether or not abuse occurred in light of
Bobadilla, Id at 791; (c) no physical or medical evidence to corroborate abuse or to base an opinion,
Croft, Id at 1127; Ripson, Id at 808; (d) the child statement alleged no wrong doing as to the mother,
Whisman, Id at 1310, and did not indicate a likelihood that the child would destroy material
evidence, even after Bartley’s examination, Cortez Id at 993; Cortez, 478 F.3d at 1119 and (e)
Heartland, Id at 810 -11 in rejecting the “sibling rule” argument that one child statement merits
removal, interrogations, and/or examinations of all other children (K.C.W., C.U., C.U.) who did
not disclose any form of abuse. All these factors signifies that the information or child source was
not reliable when all “reasonably trustworthy information” available to Defendants were to the
contrary. Cortez, 478 Id at 1119.
Fourth, under Anderson v. Creighton, 483 US 635, 641 (1987) reasoning that where
Petitioners can point to specific facts of Defendants improper motivation, qualified immunity is
inappropriate. The record supports allegations and evidence of improper motive with specific facts
in the complaint and supporting Exhibits (A-N) showing:
Petition By Udoh - Page 31

to aid law enforcement motive or purposes, no compelling government interest to protect the
children, Defendants violation of state and federal statutory law; Defendants knew of
presentation of false statement to other state actors and court; Defendants motives or
actions in gathering evidence during hold used to secure a removal order, to prosecute the
parent in family court and to charge and convict the parent in criminal court.
Under the reasoning of Gomes v. Wood, 451 F.3d 1122, 1131 (10th Cir. 2006)(considering the
question of whether state officials had time to seek and obtain judicial authorization and for the
failure to established that judicial authorization was impracticable to undermine “emergency
circumstance” is a factor relevant to the reasonable suspicion determination), Defendants are not
entitled to qualified immunity because Defendants had tremendous amount of reasonable time to
obtain parental consent or judicial authorization before causing irreparable injury to Petitioners
and their children. These actions during hold detract from the finding of immediate danger,
emergency, probable cause or reasonable suspicion. See Doe v. Hennepin County (evidence of
improper motive); Lux by Lux v. Hansen, 886 F.2d 1064, 1067 (8th Cir. 1989); Myers v. Morris;
Tenenbaum; Bobadilla Id at 791 (“the [motive or] purpose of the interview was to confirm a past
allegations of abuse rather than to assess immediate threats to the [child’s] health and welfare.
Because of these circumstances, this interview was ... for the purpose of gathering evidence [during
or for] a criminal investigation); Ferguson (same).
In light of Doe ex. Rel. Doe v. Little Rock Sch. Dist., Id at 355, the fruits of the searches at
issue here were apparently turned over to law enforcement to be used in prosecuting parents. This
evidence of improper motive, including violating state and federal law and/or “goals of ferretting
out crime” is a relevant factor used to determine the “objective legal reasonableness” for qualified
immunity since the circuit court has held it is nearly impossible to separate the clearly established
analysis from the violation of Petitioners constitutional rights in child abuse cases. Heartland, Id

Petition By Udoh - Page 32

v

J

at 808. The district court clearly erred in failing to resolve these evidence of improper motives
under the reasoning of Braden, Id at 595 in Petitioners’ favor.
Fifth, Defendants would argue, they were enforcing state statute but Defendants are not
entitled to qualified immunity under the reasoning of Justice Shepard in Coates v. Powell, Id at
478 - 79; Roska, 328 F.3d at 1252; Grossman v. City of Portland, 33 F.3d 1200, 1209 - 10 (9th Cir.
1994); Denton v. Rievley, 353 Fed. Appx. 1, 6 (6th Cir. 2009) that the existence of an authorizing
statute, however, does not make an official’s action per se reasonable. Most problematic as seen in
this case is where (a) Defendants clearly violated the same authorizing statute they are relying
on; (b) under the reasoning of Good and Calabretta in denying qualified immunity to government
officials when they failed to act in accordance with state guidelines; and (c) the fact that both
statutes had been challenged before puts Defendants in fair notice.
Regarding Petitioners’ right to familial privacy, R.S v. State is inapposite because it was
decided under the summary judgment standard. Even if it applies, Defendants are not entitled to
qualified immunity because unlike R.S, where the child was under 7 years old and the statute
§626.556 does not require Tennessen warning, this case required that warning and Defendants
failed to comply. The magistrate and district court clearly erred under the reasoning of Collins, Id
at 596 that for violation of state law, the circuit court held “[r]ather, our inquiry ‘generally turns
on the ‘objective legal reasonableness’ of the [Defendants’] action” is indeed a required factor for
accessing qualified immunity and the lower courts failed to access that relevant factor.
Without Miranda and/or Tennessen warning, Defendants coerced the children into
interrogations, removals, recordings and examinations in light of J.D.B u. North Carolina, Id at
269 - 281 (failure to give Miranda is a coercive aspect, not the children free choice and are

Petition By Udoh - Page 33

J

involuntary statements), and that detracts from any findings of probable cause or reasonable
suspicion because it was unlawful.
Even if this court were to rely solely on an uncorroborated child statement, the child
statement and child source in this case is very problematic under the reasoning and in light of
Safford Unified Sch. Dist. u. Redding, 370-71 that the reasonable suspicion standard depends on
(a) specificity of the information received, even where courts have held that a child statement alone
are testimonial in nature, see Bobadilla and presumptively unreliable, and (b) the reliability of its
source which was reasonably in question by reasonable Defendants evidence on false allegations
and reputation of dishonesty. The district court clearly erred in failing to access the child’s
reliability as a relevant factor to reasonable suspicion determination.
Sixth, on the issue of hearing for procedural due process on removal, the district court
clearly erred in adopting the magistrate court in ECF No. 143 at 19 that Petitioners attended the
hearing to satisfy due process under clearly established law in Doe v. Hennepin County, Id at 1329
(held adequate post deprivation hearing requires representation by counsel, being able to offer
testimony on their own behalf and to cross-examine witnesses against them). The district court
clearly erred under the reasoning of Winegar because Petitioners “was never given any opportunity
to cross-examine those witnesses [such as the children, Wallen, Parker, Lynch, Ray, Koncar, Song,
Bartley, see ECF No. 59-2 at 2 at the February 26 hearing] or to present witnesses on his behalf’).
Furthermore, under the reasoning of Green, Id at 1035 n.21, because the record does not contain
any evidence or transcripts from the juvenile court hearing, so it is impossible to know whether
the hearing was adequate to meet the due process requirement. Petitioners have not been given
the opportunity for discovery or to offer proof under Haines standard. Also, Petitioners was offered

Petition By Udoh - Page 34

no adequate pre- or post-deprivation hearing regarding the physical and medical examination of
their children and entering of maltreatment record.
For physical and medical examination, Defendants are not entitled to qualified immunity
in light of Tenenbaum holding, that at the time of examination, the children were already removed
from their home and there was no emergency, meaning there was no legitimate compelling
government interest at that time, Whisman, Id at 1310. Defendants conducts were plainly
unreasonable under the reasoning of Jones v. Hunts, 410 F.3d 1221, 1229 (10th Cir. 2005) (where
no legitimate bases exist for detaining a child, a seizure is plainly unreasonable). Unlike Doe v.
Tsai, there was emergency at the time of examination. The children in this case here were not in
the parent’s custody, were not under any 72-hours hold and Defendants failed to act within the
confines of their legal authority because as alleged in the complaint HH57-230, no state statute,
parental consent, emergency or exigent circumstances, court order compelled their conducts. By
stepping beyond their boundary in the medical and physical examination, and because they
crossed a bright line, there can be no findings supporting any state compelling interest, and the
reasonable suspicion of abuse standard does not apply.
Seventh, regarding malice or willfulness, in light of Heartland u. Waddle, holding, malice
and/or willfulness can be inferred under the reasoning of Snell v. Tunnell, 920 F.2d 673 (10th Cir.
1990). The complaint alleged the following against Bartley HH57-230:
physical examination of Petitioners children, presentation of false information to court and
other state actors, transportation of the children to CornerHouse and being told on what to
say during the CornerHouse interview, failure to give Miranda and/or Tennessen warning to
secure a removal order based on these information,
do preclude any qualified immunity defense on Bartley. Petitioner should be offered the
opportunity to show proof under the reasoning of Greene (evidence offer of proof) and Haines
standard.
Petition By Udoh - Page 35

V

These facts alleged in the complaint would suggest Bartley acted intentionally, deliberately,
willfully or with malice which can be readily inferred from the transcript recordings and Bartley’s
reports, see Exhibits A-N, juvenile sworn court affidavit by Bartley, see ECF No. 59-1 at 5, K.K.W.
and K.C.W. affidavits, see ECF No. 119 (restricted), all critical to the removal order from the
mother’s custody and entering of maltreatment findings without Tennessen warning. See Murray
v. Lene, 595 F.3d 868, 872 (8th Cir. 2010). Courts have found such actions by Bartley to defeat
qualified immunity defense or cannot be a basis for dismissing this claim under the reasoning of
Berman v. Young, 37 F. Supp. 2d 1035, 1047 (N.D. Ill. 1998) (that [Bartley] conducted incompetent
manner investigation and knowingly relied on false information was sufficient to survive
Defendants motion to dismiss the claim). The district court clearly erred in relying on Doe v.
Hennepin County which is inapposite because it was decided under the summary judgment
standard, and the district court failed to give Plaintiffs any reasonable opportunity to offer proof
of malice or improper motive under Haines standard. Baribeau v. City of Minneapolis, 596 F.3d
465 (8th Cir. 2010) (malice is a subjective standard, in contrast to the objective qualified immunity
standard).
For maltreatment findings claims, in light of Bohn; D.C. v. Dep’t of Human Servs., (Pa.
2016); Valmonte; Humphries; Dupuy v. Samuels, 397 F. 3d 493, 503-04, 509-11 (7th Cir. 2005),
Plaintiffs are effectively barred from future employment in the child care field because Bartley’s
findings is disclosed to, and used by licensing agencies. Defendants are not entitled to qualified
immunity because they violated Petitioners’ protected liberty interest that is squarely implicated
under Paul v. Davis, 424 U.S. 693 (1976).
Eighth, under the Haines, liberal construction or notice pleading standards, triable or
genuine issues of material facts exists as to whether malice, probable cause, reasonable suspicion
Petition By Udoh - Page 36

if

.S

of abuse or exigent circumstances existed, argued in ECF No. 99 at 37, ECF No. 101 at 27 - 28,
ECF No. 102 at 37, ECF No. 118 at 38 - 39, ECF No. 155 at 7 - 13 at the magistrate and district
court. Greene, Id at 1035. See Akey v. Placer, 2015 US Dist. LEXIS 35306 (Mar. 20, 2015) (qualified
immunity cannot be decided “based solely on the allegations in the complaint.” Whether reasonable
[suspicion or] cause to believe [abuse or] exigent circumstances existed is generally a question of
fact for the jury.” See Mabe, 237 F.3d at 1108. Also, based on the denial of City Defendants
summary judgment motion is a prima facie showing that precludes Defendants motion to dismiss
and judgment on pleading on qualified immunity grounds.
Ninth, the district court “consistent” findings and “placement with their biological father”
is inconsistent with the allegations in complaint under the reasoning of Braden Id at 595. The
children had been in out-of-home since February 21, 2013, and any placement with their biological
father did not happen until May 9, 2013, see ECF No. 59-13 at 3-4 which Petitioners object to
under Haines standard. Defendants actions alleged in the (original and amended) complaint and
arguments presented in section I through X were disproportionate to the circumstances, coupled
to the fact that the girls were removed but Defendants left the other children boys at home defeats
any reasonable suspicion or immediate danger of abuse. Defendants’ action here were based solely
on speculation or uncertainty of a child before interrogations, removals, recordings, examinations
and supports conspiracy to violate Petitioners’ constitutional rights, and was disproportionate to
the circumstances.
Finally, Petitioners move this court in light of Whitson v. Stone County Jail, to reverse and
remand because there remains a question of facts on a determinative issue in this case, such as
the child’s source reliability and because the district court applied the wrong legal standard to a
pro se claims. Also considering the evidence showing that the same Defendants-Resnondents have
Petition By Udoh - Page 37

V

*'

‘4

initiated another maltreatment finding and a proceeding to terminate the rights of the parents in
2018/2019 based solely on prior false determinations in 2013/2014, and the supporting evidence
showing that this is a case where the parent tried to secure a lawyer before and after dismissal
from the district and circuit courts but was unsuccessfully, this further underscores the importance
of granting review in this case.
III. THE “REASONABLE SUSPICION OF CHILD ABUSE” STANDARD DOES NOT
APPLY TO 42 U.S.C.S. §1983 FOURTH AMENDMENT AND RIGHT TO PRIVACY
CLAIMS; FOURTEENTH AMENDMENT STIGMA-PLUS; AND CONSPIRACY
CLAIMS; AND COMPETENT PARENT (WHO ARE NOT AN ATTORNEY)
SHOULD BE ABLE TO PROCEED PRO SE ON BEHALF OF THEIR MINOR
CHILDREN IN A FEDERAL CIVIL COURT.
In light of the standard of review delineated in section I, and arguments presented in section
II, the “reasonable suspicion of child abuse” standard does not apply to 42 U.S.C.S. §1983 fourth
amendment and right to privacy claims; fourteenth amendment stigma-plus; and conspiracy
claims. In light of the standard of review delineated in section I, and arguments presented in
section II, competent parent (who are not an attorney) should be able to proceed pro se on behalf of
their minor children in a federal civil court.
IV. DEFENDANTS FALSELY ARRESTED AND IMPRISONED PLAINTIFFS AND
CAUSED INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS ON ALL
PLAINTIFFS; AND DEFENDANTS POLICY, CUSTOM, MINN. STATS. §626.556
AND §260.165 NOW MINN. STATS. §260C.175 ARE UNCONSTITUTIONAL
FACIALLY AND AS APPLIED TO PLAINTIFFS-PETITIONERS.
In light of the standard of review delineated in section I, and arguments presented in section
II, Defendants falsely arrested, imprisoned and caused Petitioners and their children to suffer
severe emotional distress under Ripson and Cortez reasoning (finding no probable case or arguable
probable cause, reasonable suspicion or arguable reasonable suspicion based on an uncorroborated
child statement alone) for their unconstitutional conducts. Furthermore, in light of the standard of
review delineated in section I, and arguments presented in section II, Defendants Policy, Custom,
Petition By Udoh - Page 38

«f

i

Minn. Stats. §626.556 and §260.165 now Minn. Stats. §260C.175 are unconstitutional facially and
as applied to Plaintiffs-Petitioners.
CONCLUSION
Wherefore, Petitioner, Emem Ufot Udoh. prays the court issues a Writ of Certiorari to
review the judgment and opinion of the Eighth Circuit Court of Appeals.

Respectfully Submitted,

Dated: April 5. 2021

uaEmem U. Udoh, 245042
Pro se Litigant,
7600 525th Street,
Rush City, MN 55069
CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2(b). Petitioner, Emem Ufot Udoh. certifies that this Petition complies
with the page limitation in that rule. According to Microsoft Word 2019, the word processing
program used to produce this Petition, it contains 39 pages.

Dated: April 5. 2021

Respectfully Submitted,

u
Emem U. Udoh, 245042
Pro se Litigant,
7600 525th Street,
Rush City, MN 55069

Petition By Udoh - Page 39

